Supreme C;c.... I, U.S.
FILED

WA V ER

AUG 1 I 2320

Supreme Court of the United S tomn

OF

CI F9K

No. 20-102
Christopher Hadsell
(Petitioner)

v.

Barry Baskin, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
tx There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Please see attached

I am a member of the Bar of the Supreme Court of the United States.
yI I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

/s/ Sharon M. Nagle

Signature

August 14, 2020

Date:

(Type or print) Name

Sharon M. Nagle
0 Mr.

Firm

Address

0 Mrs.

0 Miss

2125 Oak Grove Road, Suite 210

City & State
Phone

0 Ms.

Bold, Polisner, Maddow, Nelson & Judson

Walnut Creek, CA

Zip

94598

925-933-7777

RECEIVED

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF AUG 2 6 2020
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
uFICE OF THE CLERK
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
SUPREME COURT, U.S.

Cc:

Christopher Hadsell

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

Attachment to WAIVER

Sharon M. Nagle is the attorney for Respondents listed below:

Honorable Tani Cantil-Sakauye, Chief Justice of the Supreme Court of California
Honorable Mark Simon, Justice of the California Court of Appeal
Honorable Henry Needham, Jr., Justice of the California Court of Appeal
Honorable Barbara Jones, Justice of the California Court of Appeal
Honorable Barry Baskin, Judge of the Superior Court of California, County of Contra Costa
Honorable Christopher Bowen, Judge of the Superior Court of California, County of Contra
Costa
Honorable Barbara Hinton, Judge of the Superior Court of California, County of Contra Costa l.
Honorable Terri Mockler, Judge of the Superior Court of California, County of Contra Costa
Honorable Anita Santos, Judge of the Superior Court of California, County of Contra Costa
Honorable Charles Treat, Judge of the Superior Court of California, County of Contra Costa
Honorable Edward Weil, Judge of the Superior Court of the California, County of Contra Costa
Honorable Gary Ichikawa, Judge of the Superior Court of California, County of Solano
Honorable Kathleen Murphy, Commissioner for the Superior Court of California, County of
Contra Costa

BOLD, POLISNER, MADDOW, NELSON & JUDSON
A PROFESSIONAL CORPORATION

CRAIG L. JUDSON

2125 Oak Grove Road, Suite 210, Walnut Creek, CA 94598
Telephone: 925.933.7777
Fax: 925.933-7804
www.bpmnj.com

CARL P. A. NELSON
ROBERT B. MADDOW
(OF COUNSEL)

SHARON M. NAGLE
DOUGLAS E. COTY
TIMOTHY J. RYAN
J. KEVIN MOORE
KIMBERLY L. MOORE
SCOTT J. JUDSON
KYLA J. HALE
MORGAN S. BIGGERSTAFF

JEFFREY D. POLISNER
(RETIRED)
FREDERICK BOLD, JR.
(1913-2003)

August 17, 2020

Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Hadsell v. Baskin
Case No.: 20-102

Dear Sir or Madam
I have enclosed the original and 2 copies of the Waiver regarding the above referenced
matter. Please file the original and return a filed copy to this office in the self-address, stamped
envelope provided.
Thank you.
Very truly yours,

antiZec_
Shannon Wurth, secretary to
Sharon M. Nagle
:sw
Encl.

RE
AUG 26

Atio

SUPREMECOURTLERK
US

